Supreme Court, U.S.
FILED

DEC 0 3 2020
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

JOSHUA FBIL HAHREli

— PETITIONER

(Your Name)
vs.

Cfilifornig

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

SUPagiE COURT OP CaIIPORNTA
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

JOSHUA F5IL K..RB5II-, CDCR"- EH 7^94
(Your Name)

Polsom State Prison, P* 0. Box 950
(Address)

INAL

Polsom. 0£ 9 57 S3
'(City, State, Zip Code)
(9i6)985-256i 3xt«
(Phone Number)

4444

RECEIVED 1
DEC t 6 21)2(1

QUESTION(S) PRESENTED

Whether the unreasonable search pnd seizure pig judicially viol? ted
the fourth pnd fourteenth Amendments to the United States Constitution ?
>. f

Whether the Unreasonable Search an Seizure Violated. The fourth and
fourteentgJAmendments teethe Uni ted. States Cons.titu.ti on,

_____ ______

LIST OF PARTIES

All parties appear in the caption of the case on the cover page.
[ ] All pai ties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

Case No. 5’CB'5?'z.678i, Solpno Court} Superior Court ’treo-nle v.“ Hprrelt”
Case No.

i*l560i7, First Appellate Court;.of *ppeal "

No," 3?99968, C^ifornir Su rreme Court

w

"

n

Case No.

A1599?3, Firet -,rpel.1ate Court of

"

w

Case No,

3?540^0, California 3upreme Court

«

**

Case Noe. i9-87?8, U, S, Supreme' Court "Tiarre.11 v. C*sliforntg11
Care No, A1599?% First fprelVte Court of Apreel ^eorle v, Harrell”
Case No, ICRT55*88, Solano Count} Superior Court "In re JT’SEJ' HAHBEHj"

TABLE OF CONTENTS

1

OPINIONS BELOW
JURISDICTION

.2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

4-6

STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT

7-1.3
.1.4

CONCLUSION

INDEX TO APPENDICES
APPENDIX A

Opinion 8/10/20

APPENDIX B

Petitions for review denied 10/21/20

APPENDIX C

Opinion 11/27/19

APPENDIX D

People’s petition for review granted and Petitioner’s
denied-2/11/20

APPENDIX E

California Supreme Court Order 6/17/20

APPENDIX F

PHT 6/18/18

APPENDIX 0 U.S. Supreme Court Order denying petition for a writ of
certiorari 10/5/20

TABLE OF AUTHORITIES CITED
CASES

People v. Harvey (1958) 156 Cal. App. 2d 156

PAGE NUMBER
3, 12

People v. Madden (1970) 2 Cal. 3d 1017

8, 12

Chapman v. California (1967) 386 TL 8. 18, 24

9

People v. Reyes (1998) 19 Cal. 4 th 743, 753-754.

11

Camara v. Municipal Court (1967) 387 U. S. 52 3, 528

11

Oregon v. Hass (1975) 420 u. s9> 71 4, 719

11

Ceolidge v. New Hampshire (1971 ) 403 U.S. 443, 454-455

11

TJnited States v. "Di Re (1948) 332 U.S, 581 , 595

11

£er v. California (1963) 374 U.S. 23, 33

12

M&pp v. Ohi® (1961 ) 357 U.S. 643, 655

12

STATUTES AND RULES
California Penal Codes
§ 1 538. 5
1 3067, subMd)

11-13

California Vehicle Cade
I 5200, subd. (b)

8,10,11

OTHER

United States Csnstitution
Paurth Amendment

7,8,10-12

Paurteenth Amendment

7,8,10-12

TAB IE OP AUTHORITIES CITED
(continued)
CASES

PAGE NUMBER

People v. Douglas (2015) 240 Cal, 4th 855, 861, 863

12, 13

Samson v. California (2006) 547 U. S. 843, 856

12

Terry v. Ohio (1968) 392 U. S. 1, 16

12

People v. Brown (2015) 61 Cal, 4th 968, 983

12

United States v. Hensley (1985) 469 U. S. 221, 231-233

12

People v. Romeo (2015) 240 Cal, App, 4 th 931, 945

12

In re Eskiel (1993) 15 Cal. App, 4 th 1638, 1644

12

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
IX] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix__&__to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[3T is unpublished.
The opinion of the_Tj rg^- Ap-nmi l &.tm T).i a trie t. Appeals
court
appears at Appendix ~_A
to the petition and is
reported atTJn'xmwn (Partial Publication)
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was_______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including_______
(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[X] For cases from state courts:
The date on which the highest state court decided my case was 6/17/2Q2P
A copy of that decision appears at Appendix
[3fl A timely petition for rehearing was thereafter denied on the following date:
10/21/2020
, and a copy of the order denying rehearing
appears at Appendix B
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

-

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Fourth Amendment to the United States Constitution that prohibits
unreasonable searches ant* seizures. (Appendix A, pg. 4, Appendix C, pg;/!)
The Fourteenth Amendment to the Uni tec1. Slates Constitution that prohibits
states from denying due process and equal protection of the laws.
Cal* Fen. Code, 8 1473. 6 fhls* testimony. Officer Anferpon- gave false
testimony about

certain facts throughout the proceedings.

Cal. Pen. Code, • I 1538. 5 Suppression of illegally seized evidence.
(Appendix A, pg. 2; Appendix C, pg. 2; Appendix F, pg; 9)
Cal. Pen. Code, § 30 67, subd. (d) Prohibiting "law enforcement officers
to conduct searches;' Tor the sole purpose of harassment. " (Appendix A, pg.
6; Appendix C, pg. 5)
Cal. Veh. Code, § 5200, subd. (b) There m&-s a dealer’s plate on the rear
of the vehicle that was legally parked on the side of the road at the
time of the arrest.

.

"When only one license plate is issued for use upon •

a vehicle, it shall be attachedv to the rear thereof. ”

3

STATEMENT OF THE CASE
On November 24, 2017, at approximately 3?00 a.m•

*

the petitioner

was sleeping in a car that was legally parked on the side of the road
he was not the legal or registered owner of. The keys were in the center
console and not in the ignition. There was a dealer's plate attached to
the rear of the vehicle.
Officer Anderson was patrolling the area and noticed" the vehicle the
petitioner was in the windows "were fogged." He also noticed the petitioner
sleeping on the driver's side and that there wasn't any license plate on
the front. Anderson stopped near the vehicle and knocked several times
with his flashlight on the window to wake up the petitioner. Once the
petitioner was awake, he asked for his name and date of birth, which was
provided. ..nderson also asked the petitioner if he was on PBCJS and the
petitioner admitted he was and a warrantless detention and search was
initiated before proper channels could provide the information. It was a
”*couple of minutes'" into the warrantless detention and search when the
dispatcher transmitted the information of petitioner's active PROS status.
The search of the vehicle produced a few notebooks and a phone that cont­
ained personal identifying information. The petitioner was arrested and
charged with three counts of possesion of identifying information.
A March 26, 2018 motion to suppress evidence was granted and on March
28, 2018, the Honorable E. Bradley Nelson dismissed the case because the
People failed to present competent evidence that officer Anderson knew of
the petitioner's PROS status through proper channels, prior to the illegal
detention and search. The video that was submitted at the hearing of Ander­
son’s body camera recording of the incident showed the warrantless detention
and search was conducted before the dispatcher transmitted the information.
The illegal detention, search and seizure resulted in the cases dismissal.
4

On March 29, 2018, the prosecution refiled, the first amended
complaint case number FCR336781 charged petitioner with three counts
of fraudulent possession of identifying information with a prior conv­
iction. Pen. Code, § 530. 5(c)(2); further alleging one prior strike S
667, subd. (d), (b)-(j), S 1170.12, subd. (b); and four prison term priors,
8 657. 5, subd. (b). (CT 57-59; 108-116)
The petitioner's July 30, 2018 S 1 538. 5 motion to suppress evidence
was denied on August 13, 2018.

(CT 72-80? 83-91? 96)

Jury trial ensued before the Solano County Superior Court .judge
Michael Smith, guilty verdicts resulted. (CT 1 !6-167? 169) The trial
judge found true the prior strike and prior prison terms in a bifurcated
court trial. (CT 169) Petitioner's motion to dismiss the prior strike was
denied.

(CT 193-201 ; 205-220) On October 25, 2018, an aggregate sentence

of 12 years, 8 months was imposed, to witt count on®, Tipper three years
doubled t® six years; counts two and three, consecutive sixteen month
terms; four consecutive years for prior prison terms. (CT 257-259)
On December 11, 2018, a timely notice of appeal was^filed. (CT 260)
On appeal, petitioner contended? (1) The judgment must be reversed because
of the erroneous denial of the motion to suppress evidence, (2) the con­
victions must be reclassified as misdenmeanors under § 490.2, and (3) the
four prior prison term enhancements must be stricken due t® an amendment
t® 3 667. 5, subd. (b) (that became effective January 1, 2020)
' The Court of appeal rejected the first contention on appeal but agr­
eed that the convictions must be reclassified as misdemeanors and that
the 8 667. 5(b) enhancements must be stricken. (Appendix C, Typed Opn. 6,
7, 8.)

The petitioner petitioned for review in the California Supreme Court
the erroneous denial of the motion to suppress evidence alone. The People
5

petitioned for review the court of appeals decision to reclassify the
felonies to misdemeanors.
The petitioner timely filed an answer to the People's petition for
review. The People never filed an answer t® the petitioner's petition,
nor did the People file a reply to the petitioner's answer.
The California Supreme ^ourt granted the People's petition for
review and denied the petitioner's on February 11, 2020.

(Appendix D)

The California Supreme Court vacated the court of appeals decision to
reconsider in light of People v. Jimenez (2020) 9 Cal. 5th 53. (Appendix
E)

The petitioner petitioned for a writ of certiorari in the United
States Supreme Court, case number 19-8728.
On August 10, 2020, the court of appeal issued it's opinion that
was partially published. The published portion rejects the contention
that the convictions must be reclassified as misdemeanors and. the unpub­
lished portion affirms the denial of the suppression motion and concludes
the prior prison term enhancements must be stricken. (Appendix A)
The petioner then petitioned for review of the California Supreme
Court in two separate petitions? (1 ) the convictions must be reclassified
as misdemeanors, and (2) the erroneous denial of the suppression motion.
The United States Supreme Court denied the petition for a writ of
certiorari on October 5, 2020 (Appendix G) and the petitioner petitioned
for the rehearing;'
The California Supreme Court denied both of the petitions for review
on October 21, 2020. (Appendix B)

6

REASONS FOR GRANTING THE PETITION
THE UNR3AS0NA3IE SEARCH AND SEIZURE PREJUDICIALLY VIOLATED THE FOURTH
AND FOURTEENTH AMENDMENTS TO THE UNITE1' STATES CONSTITUTION
The procedural and factual background.
A March 26, 2018 motion to suppress evidence was granted on March
28, 2018 before the Honorable B. Bradley Nelson, the People failed, to
present competent ev/idence that officer Andersen knew of the petitioner's
PROS status through official channels before the detention, search and
seizure initiated,

""he video of Anderson's oody camera recording of the

incident showed that the warrantless detention and search was conducted
before the dispatched -transmitted the information of petitioner's PROS
status. The illegal detention, search and seizure resulted in the cases
dismissal. (CT 74)
On March 29, 2018, the prosecution refiled the charges. On June 18,
2018, judge David B, Power denied the petitioner's June 18, 2018 suppre­
ssion motion based soley on Anderson's testimony in conjunction with the
standards of probable cause at a preliminary hearing and holding to
answer.

(GT 74-75)

There wasn't any competent evidence to justify an objectively rgasnnE ab'le search or -to establish the officer's'' knowledge of petitioner's PROS
statps,through official channels, prior to the warrantless detention and
search.

The fact was the information transmitted by the dispatcher of pet­

itioner's PECS status was transmitted a "couple ©f minutes" after the off­
icer initiated the illegal detention and search.

(PHT 14, 2d) De novo revi­

ew of the preliminary transciripts (Appendix F) with an independant determi­
nation of the law applied to the facts failed to present and meet the pros­
ecutions burden of competent evidence of the searches reasonableness. Ander­
son testified "I do not" remember that there was a dealer's plate on the

7

rear of the vehicle.

(See Appendix F, PHT pg. 28, line 4) Gal. T/eh. Code,

9 5200(b) permits a vehicle to have only one license plate on the rear.
'•Thus, there wasn't any vehicle code violation or objectively reasonable
search.
The trial court erred in overruling petitioner's Harvey-M&dden
objection when it was the proper objection. The Harvey-Madden 1 rule
required independent evidence ©f reliability which was never supplied.
Hence, there was no competent evidence of the search's reasonableness,
(CT 78-79) Uiere wasn't any probable cause for the officer to stop the
petitioner and Anderson did not learn through official channels of his
active PRCS status. Pile petitioner admitted to Anderson he was on PROS
and thata when the illegal detention and search initiated. If Anderson
had any valid probable cause to stop the petitioner who was sleeping in
a car at 3:00 a. m •

t

it was not presented. The Harvey-Madden objection

should have been sustained but it wasn't.
At the August 13, 2018 suppression motion before judr» Smith, the
petitioner objected the prosecutions judicial notice request of the P3CS
case numoer FCR329394 because it did not justify the illegal detention
and search and the officer did not have any knowledge of its existance (
prior to it. (1 RT; PHT 36)
The trial court judge erred in allowing the lower standard of evidence
in a preliminary hearing to be presented in a trial by denying the suppr­
ession motion as fellows: " Applying the standards that is to be applied
when the court is basically reviewing what magistrate did at the preliminary hearing, I conclude

0 0 0

that there is a sufficient factual basis for

what the magistrate did in denying the motion to suppress that's been
brought here in the Superior Court in that case. ** (1 HT 37-38; CT 96)
This is where the prejudicial determination violated the Fourth and Fourteenth Amenments to the United States Constitution. . The evidence pres •nted
8

1 People v. Harvey (1958^ 156 Cal. App. 2d 156; People v. Madden (1970) 2Cal..3d 1017

was based on the lower standards ©f a preliminary hearing and not that
is all*wed in a trial. Thus, there was a prejudicial error,

Court of

Appeal’s Opinion that the denial of the suppression motion was not in
error is wrong. There wasn't any vehicle code violation at all and off­
icer Anderson did not have any knowledge ©f petitioner’s PROS status
prior t© the illegal search and seizure. At 3:00 a. m •

*

in the morning

depping in a legally parked car, what was he harassing the petitioner
f©r? The prejudicial errors contributed t© the verdicts obtained. Chapman
v. (5lif©rnia (1967) 386 U.S. 18, 24. The illegally seized evidence comp-

rised the offenses' fraudulent possession of identifying information in
all three counts, creating a manifest injustice on appeal. A writ of cert­
iorari must be granted for the prejudicial error.

/

9

THE UNREASONABLE SEARCH AND SEIZURE VIOLATED THE FOURTH AND FOURTEENTH
AMENDMENTS TO THE UNITED STATES CONSTITUTION
I ^ ^-a fundamentally unfair haw car tain facts ware falsified or
;

left out of the record in the •proceedings.
On November 24, 2017, at approximately 3?00 a, m •

f

the petitioner

was sleeping in a car that was legally parked on the side cf the roa*
be was not the Legal or Registered owner of. The vehicle had a dealer’s
plate attached to the rear ©f it. The keys weren't in the ignition, they
were in the center console. Anderson, who was patrolling the area that
morning, attention was brought to the vehicle because it was the only
car on the block with fogged windows. As Anderson drove by the vehicle,
he noticed a person (the petitioner) s-lepping @n the driver's side. He
aloe noticed that there wasn't any license plate on the front end of the
vehicle is when he decided to stop near the vehicle. Anderson testified
later that the vehicle wasin violation of the vehicle code. (See Appendix
F PHT PS. 11, line 4) Later Anderson testified "I do not" remember that
there was a dealer's plate attached to the rear of the vehicle, (See App­
endix F PHT pg, 28, line 4) Oal. Veh. Code, § 5200(b) permits a vehicle
to have only one license plate attached to th.e

af

R%ij» fact .

was never mentioned and absent in the record.
Anderson testified that he used information provided by the petitioner
to run a record check through police dispatch and was advised that petitio­
ner was on active PROS prior to the search and seizure.

(CT 75,76) This

was also false testimony. The truth is the information transmitted by thedispatcher was transmitted a "couple of minutes" after Anderson initiated
the illegal detention, search and seizure. (See Appendix F PHT 14, 25)
The Supreme Court

has consistently held that a conviction obtained

by false information or information left out of the record is fundamentally
10

unfair, e. g. United States v. Agurs, 427 U.S, 97, 103, 96 S, Ct. 2392,
49 H Ed. 2d 342 (1976).
There was no objectively reasonable search._
It was 3 :00 a. m., and the petitioner was sleeping in a legally
parted car. What was officer Anderson harassing the petitioner for ?
The car was not in any vehicle code violation. There was a dealer's
plate attached t© the rear of the vehicle permitted by Cal. Teh. Code,
S 5200(b).- The vehicle not stolen with current registration. Anderson
may have had the right to do a welfare check on the petitioner, but
anymore than that was harassment. See S 3067, subd. (d); People v. Reyes
(1998) 19 Cal. 4 th 743, 753-754.
Anderson had to snock several times with his flashlight to wake the
petitioner up. Once awake, the petitioner provided Anderson with true
and correct information. Before Anderson could verify through official
sources the petitioner's PROS status, there was /«tn illegal detention and
search without valid reason.
The Pourth Amendment to the United States Constitution guarantees
"the. right of the people to be 3ecure in their persons,

♦ oo

papers, and

effects, against unreasonable searches and seizures, shall not be violated
o • •

The Amendments purpose is to safeguard the individual's privacy-and

security against arbitrary invasions by governmental officials. Camara v.
Municipal Court (1967) 387 n. 3. 523, 528. A state court must provide a
person with the minumum constitutional protection accorded by the TTnited
States Supreme Court. Oregon v. Mass (1975) 420 u. 3. 714, 719. A presumpt­
ion exists that a warrantless search is unreasonable unles it falls within
a specifically delineated exception to the warrant requirement. Coolidge
v. New Hampshire (1971) 403 U.S. 443, 454-455. "A search is not made le«*l
by what it turns up." United States v. Di Re (1948) 332 U.S. 581 , 595, fh.
11

omitted. The Fourth Amendment ia enforceable against the states through
the Fourteenth Amendment. Ker v. California (1963) 374 TU S. 23, 33.
Bvidence obtained through a search and seizure violative of the Fourth
Amendment must generally be excluded in the criminal prosecution. Mapp
v. Ohio (1961 ) 367 U.S . 643, 655.
The legislature lias not intended to authorize law enforcement offic­
ers to conduct searches for the sole purpose of harassment. (See § 3067,
subdi

(d)) Statutory searches prohibit arbitrary, capricious, or harass­

ing searches. People v. Douglas (2015) 240 Cal. 4th 855, 861, 863; Samson
v. California (2006) 547 tJ.S. 843, 856.

The officer's knowledge based

upon the objectively reasonable standard is required. People v. Douglas,
supra, 240 Cal. 4th at pp. 862, 865, 868. Purely historical facts, such
as what the officer knew and whether he subjectively believed are reviewed
for slabstantial evidence. (Id. at p. 869)
. When an officer accosts an individual and restrains his freedom to
walk away, he has "seized" that person, Terry v. Ohio (1968) 392 U. 3. 1,
16. An officer may detain or arrest a suspect based on official channels.
People v. Brown (2015) 61 Gal. 4th 968, 963; People v. Madden, supra, 2
Cal. 3d at p, 1021; United States v. Hensley (1985) 469 U.S. 221, 231-233.
Harvey-Madden maintains continuing vitality. People v. Romeo (201 5) 240
Cal. App. 4th 931, 945. The court independantly applies law to the facts.
(Id. ; at pp. 941-942)

The prosecutions showing is insufficient when no basis is adduced.
People v. Madden, supra, 2 Cal. 4 th at p. 1021, or the related evidence is
of "a very vague nature. " People v. Harvey, supra, 1 56 Cal, 2d at p. 521,
or "was wholly insufficient to justify detention.*1 In re Sskiel (1993)
15 Cal.App. 4th 1638, 1644. Here, there is n© evidence t© justify a deten­
tion. (Ibid.) Stated differently, even if the petitioner was subject to
a statutory PROS search and his expectation of privacy was "slight;'
12

People v. Pouglas, supra, 240 Cal. App. 4th at p. 872, Anderson was not
authorized t© search petitioner for the purpose ©f harassment. (See 1
,- ,

3067, subde (d)), it was 3100 aim. and the petitioner wag sleeping in a
legally parked car. (PHT 10-12) What was officer Anderson messing with
the petitioner for ?
f

The Court of Appeal is wrong in its ©pinion that the denial of the
suppression motion was not in error because it was. The court should
grant this petition for a writ of certiorari because the detention,
search and seizure was unreasonable.

13

CONCLUSION

The petition for a writ of certiorari should be granted.

14

